CERTIFICATE OF SERVICE
NO. TBD
Gerald Claude Carlson
Petitioner(s)
v.
United States of America
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the G ERALD
CLAUDE CARLSON PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N. W., Room 5616
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for United States of America

Lucas DeDeus

February 24, 2020
SCP Tracking: Henry Brown-801 Second Avenue-Cover White

